HHS/OIG-Audit-"Overpayment Collections for the Aid to Families With Dependent Children Program by North Dakota,"(A-08-02-03001)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Overpayment Collections for the Aid to Families With Dependent Children
Program by North Dakota," (A-08-02-03001)
January 9, 2002
Complete
Text of Report is available in PDF format (368 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of overpayment collections
made for the former Aid to Families with Dependent Children (AFDC) program
by the North Dakota Department of Human Services (DHS).  The objective
of our review was to determine whether DHS remitted the Federal share of AFDC
overpayment collections to the Federal government after the program was repealed.  The
DHS has systems in place to identify, collect, account for, and remit the Federal
share of AFDC overpayments.  However, the Federal share of overpayments
collected was not remitted quarterly after the program was repealed.  We
recommended DHS resume making quarterly payments for the Federal share
of AFDC overpayments as required.  The DHS agreed with our findings and
recommendation.